                                   Report In Brief
                                    U.S. Department of Commerce Office of Inspector General
                                                          October 19, 2006

Why We Did This Review Minority Business Development Agency

Despite decreased FY 2004
appropriations, MBDA perform-
                                   Value of MBDA Performance Measures Is Undermined by
ance reporting under the           Inappropriate Combining of Program Results and Unreliable
Government Performance and         Performance Data from MBOC Program (FSD-17252)
Results Act showed an unex-
plained 300+ percent increase in   What We Found
the number of clients assisted
that year by the agency’s          We assessed the process MBDA uses to measure, monitor, report, and verify the perform-
Minority Business Opportunity      ance of Minority Business Opportunity Committees and other programs, and identified the
Committees (MBOCs).
                                   following problems:
Background
                                   •   In reporting its FY 2004 performance, the agency combined results from three signifi-
                                       cantly different programs—MBOCs, Business Development Centers (BDCs), and the
A 2003 OIG review of
                                       Phoenix program. Combining the three programs inflated the numbers, undermined
MBDA’s FY 2002 perform-
                                       the usefulness of key performance measures for assessing the accomplishments of
ance reporting found that the
                                       each individual program, and suggested that the programs are comparable, but they
agency (1) had overstated its
                                       are not. The BDC program provides the highest level of services and the Phoenix pro-
accomplishments under the
                                       gram provides the lowest. The bulk of clients assisted in FY 2004 were from the
measure, “Dollar value of
                                       Phoenix program.
contracts awarded to assisted
minority businesses,” and (2)
did not verify results until
                               • The reliability of results reported by MBOCs to MBDA was diminished by unclear
                                  definitions, inconsistent guidance, inadequate verification, and poorly supported
after they were issued. An
                                  claims of the dollar value of procurements and contracts the committees helped
FY 2002 audit of the Los
                                  clients achieve. Because of these weaknesses, several of the MBOCs we reviewed
Angeles MBOC had shown
                                  overstated their accomplishments.
that the committee’s perform-
ance claims for calendar years
1999-2001 were questionable.
In response to these earlier
reviews, MBDA officials
acknowledged the need to
strengthen their oversight of
performance measures and
associated reporting. The      What We Recommended
unusual spike in FY 2004
                               MBDA should
numbers suggested that they
had not followed through with
their intentions.
                               • Report performance of its major programs separately and clearly to reflect the differ-
                                       ent levels of service provided by an individual program.

                                   •   Clearly define (1) key MBOC performance terms and guidance, and (2) the types of
                                       contract actions included in the “dollar value of contract awards obtained” measure.
For more information, contact
John Seeba, AIG for Audits,        •   Implement sound practices for ensuring that MBOCs can document and support all
(202) 482-1934.                        claims.
To view the full report, visit     •   Make sure that regional offices and headquarters effectively monitor performance
http://www.oig.doc.gov/oig/repo        reporting and the reliability of stated results.
rts/2005/MBDA-FSD-17252-5-
0001-09-2005.pdf
